( -1
~,.lt ~a:u.VIC'-t,.),




',,<.::i:
                        DEPARTMENT OF HEALTH & ffiJMAN SERVICES                                 Office of Inspector General


                                                                                                Washington, D.C.	 20201



                                                         AUG - 3 2009

                 TO:	          Charlene Frizzera

                               Acting Administrator

                               Centers for Medicare & Medicaid Services



                 FROM:	       Daniel R. Levinson   ~ ~. ~

                              Inspector General



                 SUBJECT:	 Review of the Altoona Regional Health System's Reported Fiscal Year 2006
                           Wage Data (A-03-08-00019)               ('        .
                                                                          ,




                Attached is an advance copy of our final report on the Altoona Regional Health System's (the.
                Hospital) reported fiscal year (FY) 2006 wage data. We will issue this report to the Hospital
                within 5 business days. This review is one in a series of reviews of the accuracy of hospitals'
                wage data, which the Centers for Medicare & Medicaid Services (CMS) uses in developing
                wage indexes.

                Under the inpatient prospective payment system for acute-care hospitals, Medicare Part A pays
                hospitals at predetermined, diagnosis-related rates for patient discharges. The payment system
                base rate includes a labor-related share. CMS adjusts theJabor-related share by the wage index
                applicable to the statistical area in which a hospital is located.

                Our objective was to determine whether the Hospital complied with Medicare requirements for
                reporting wage data in its FY 2006 Medicare cost report.

                The Hospital did not fully comply with Medicare requirements for reporting wage data in its
                FY 2006 Medicare cost report. Specifically, the Hospital overstated its wage data by $1,114,822
                and 1,977 hours. Our correction of the Hospital's errors decreased the average hourly wage rate
                approximately 0.83 percent. The errors in reported wage data occurred because the Hospital did
                not sufficiently review and reconcile wage data to ensure that all amounts reported were
                accurate, supportable, and in compliance with Medicare requirements. Because the Hospital did
                not revise the wage data in its cost report before CMS computed the FY 2009 wage indexes, the
                FY 2009 wage index for the Hospital's statistical area was overstated,. which will result in
                overpayments to both of the hospitals that use this wage index.

                We recommend that the Hospital implement review and reconciliation procedures to ensure that
                the wage data reported in future Medicare cost reports are accurate, supportable, and in
                compliance with Medicare requirements.
Page 2 – Charlene Frizzera


In its comments on our draft report, the Hospital stated that it would implement procedures to
ensure that the wage data reported in future Medicare cost reports are accurate, supportable, and
in compliance with our recommendation.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov
or Stephen Virbitsky, Regional Inspector General for Audit Services, Region III, at
(215) 861-4470 or through email at Stephen.Virbitsky@oig.hhs.gov. Please refer to report
number A-03-08-00019.


Attachment
       DEPARTMENT OF HF;ALm & HUMAN SERVICES                           ·OFFIQ OF INSPECTOR GEN1£RAL .

                                                                       Olfke or Audit Services, Region III
                                                                       Public Ledger Building, Suite 316
                                                                       150 S. Independence Mall West
                                                                       Philadelphl~PA 19106-3499

                                    AUG - 5 2009
                                                   .'!1..

Report Number: A-03-08-00019

Mr. Charles R. Zorger
Senior Vice President and Chief Financial Officer
  of Financial Operations
Altoona Regional Health System
620 Howard Avenue
Altoona, Pennsylvania 16601-4899
            \
Dear Mr. Zorger:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled "Review of the Altoona Regional Health System's Reported
Fiscal Year 2006 Wage Data." We will forward a copy of this report to the HHS action official
noted on the following page for review and any action deemed necessary.

The HHS ilction official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.                                      .

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, OIG reports generally are made
available to the public to the extent that information in the report is not subject to exemptions'in
the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(215) 861-4470, or contact Bernard Siegel, Audit Manager, at (215) 861-4484 or through email
at Be,rnard.Siegel@oig.hhs.gov. Please refer to report number A-03-08-00019 'in all
correspondence.

                                              Sincerely,



                                              Stephen Virbitsky
                                              Regional Inspector General
                                                for Audit Services


Enclosure
Page 2 – Mr. Charles R. Zorger


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management and Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  REVIEW OF THE ALTOONA
 REGIONAL HEALTH SYSTEM’S
 REPORTED FISCAL YEAR 2006
        WAGE DATA




                    Daniel R. Levinson
                     Inspector General

                       August 2009
                      A-03-08-00019
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Under the inpatient prospective payment system for acute-care hospitals, Medicare Part A pays
hospital costs at predetermined, diagnosis-related rates for patient discharges. The Centers for
Medicare & Medicaid Services (CMS) adjusts prospective payments by the wage index
applicable to the area in which each hospital is located. CMS calculates a wage index for each
metropolitan area, known as a core-based statistical area (CBSA), as well as a statewide rural
wage index for each State. These calculations use hospital wage data (which include wages,
salaries, and related hours) collected 4 years earlier to allow time for the collection of complete
cost report data from all inpatient prospective payment system hospitals and for reviews of
hospital wage data by CMS’s fiscal intermediaries and Medicare administrative contractors. For
example, CMS based the fiscal year (FY) 2009 wage indexes on wage data collected from
hospitals’ Medicare cost reports for their FYs that began during Federal FY 2005 (October 1,
2004, through September 30, 2005).

CMS bases each wage index on the average hourly wage rate of the applicable hospitals divided
by the national average rate. A hospital’s wage rate is the quotient of dividing total dollars
(numerator) by total hours (denominator). Arriving at the final numerator and denominator in
this rate computation involves a series of calculations.

CMS is required to update wage indexes annually in a manner that ensures that aggregate
payments to hospitals are not affected by changes in the indexes. CMS is also required to update
payments to hospitals by an applicable percentage based on the market basket index, which
measures the inflationary increases in hospital costs. Hospitals must accurately report wage data
for CMS to determine the equitable distribution of payments and ensure the appropriate level of
funding to cover hospital costs.

The Altoona Regional Health System (the Hospital) was formed when the Altoona and Bon
Secours–Holy Family Hospitals merged on November 1, 2004. Acute-care services are provided
at two campuses, Altoona and Bon Secours. The Hospital is licensed for a combined total of 497
beds and is one of two hospitals in the Altoona CBSA. The Hospital reported consolidated wage
data of $126 million and 4.5 million hours in its FY 2006 (July 1, 2005, through June 30, 2006)
Medicare cost report, which resulted in an average hourly wage rate of $27.72.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
reporting wage data in its FY 2006 Medicare cost report.

SUMMARY OF FINDINGS

The Hospital did not fully comply with Medicare requirements for reporting wage data in its
FY 2006 Medicare cost report. Specifically, the Hospital reported the following inaccurate wage
data, which affected the numerator and/or denominator of its wage rate calculation:


                                                 i
   •   misstated salaries and hours, which overstated wage data by $546,576 and understated
       hours by 17,841;

   •   unallowable and misstated contract service costs, which overstated wage data by
       $440,626 and 10,488 hours;

   •   unallowable and misstated wage-related benefit costs, which overstated wage data by
       $167,831; and

   •   misstated excluded salaries and hours, which understated wage data by $40,211 and
       overstated hours by 9,330.

These errors occurred because the Hospital did not sufficiently review and reconcile its reported
wage data to supporting documentation to ensure that the data were accurate, supportable, and in
compliance with Medicare requirements. As a result, the Hospital overstated its wage data by a
total of $1,114,822 (numerator) and 1,977 hours (denominator) for its FY 2006 Medicare cost
report period. Our correction of the Hospital’s errors decreased the average hourly wage rate
approximately 0.83 percent from $27.72 to $27.49. Because the Hospital did not revise the wage
data in its cost report before CMS computed the FY 2009 wage indexes, the FY 2009 wage index
for the Hospital’s CBSA was overstated, which will result in overpayments to both of the
hospitals that use this wage index.

RECOMMENDATION

We recommend that the Hospital implement review and reconciliation procedures to ensure that
the wage data reported in future Medicare cost reports are accurate, supportable, and in
compliance with Medicare requirements.

ALTOONA REGIONAL HEALTH SYSTEM COMMENTS

In its comments on our draft report, the Hospital stated that it would implement procedures to
ensure that the wage data reported in future Medicare cost reports are accurate, supportable, and
in compliance with our recommendation. The Hospital’s comments are included as the
Appendix.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Medicare Inpatient Prospective Payment System.................................................1
              Wage Indexes........................................................................................................1
              Altoona Regional Health System..........................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................2
               Objective ...............................................................................................................2
               Scope.....................................................................................................................2
               Methodology .........................................................................................................2

FINDINGS AND RECOMMENDATION................................................................................3

          ERRORS IN REPORTED WAGE DATA .......................................................................4
              Misstated Salaries and Hours................................................................................4
              Unallowable and Misstated Contract Service Costs ............................................4
              Unallowable and Misstated Wage-Related Benefit Costs ....................................5
              Misstated Excluded Salaries and Hours................................................................6

          CAUSES OF WAGE DATA REPORTING ERRORS ....................................................7

          MISSTATED WAGE DATA AND POTENTIAL OVERPAYMENTS.........................7

          RECOMMENDATION ....................................................................................................7

          ALTOONA REGIONAL HEALTH SYSTEM COMMENTS ........................................7

APPENDIX

          ALTOONA REGIONAL HEALTH SYSTEM COMMENTS




                                                                    iii
                                               INTRODUCTION

BACKGROUND

Medicare Inpatient Prospective Payment System

Under the inpatient prospective payment system for acute-care hospitals, Medicare Part A pays
hospital costs at predetermined, diagnosis-related rates for patient discharges. In fiscal year
(FY) 2009, the Centers for Medicare & Medicaid Services (CMS) expects Medicare Part A to
pay inpatient hospitals approximately $138.3 billion.

Wage Indexes

The geographic designation of hospitals influences their Medicare payments. Under the
inpatient prospective payment system, CMS adjusts payments through wage indexes to reflect
labor cost variations among localities. 1 CMS uses the Office of Management and Budget
(OMB) metropolitan area designations to identify labor markets and to calculate and assign wage
indexes to hospitals. In 2003, OMB revised its metropolitan statistical area definitions and
announced new core-based statistical areas (CBSA). CMS calculates a wage index for each
CBSA and a statewide rural wage index for each State for areas that lie outside CBSAs. The
wage index for each CBSA and statewide rural area is based on the average hourly wage rate of
the hospitals in those areas divided by the national average hourly wage rate. All hospitals
within a CBSA or within a statewide rural area receive the same labor payment adjustment.

To calculate wage indexes, CMS uses hospital wage data (which include wages, salaries, and
related hours) collected 4 years earlier to allow time for CMS to collect complete cost report data
from all inpatient prospective payment system hospitals and for CMS’s fiscal intermediaries and
Medicare administrative contractors to review the data. For example, CMS based the wage
indexes for FY 2009, which began October 1, 2008, on wage data collected from hospitals’
Medicare cost reports for their FYs that began during Federal FY 2005 (October 1, 2004,
through September 30, 2005). A hospital’s wage rate is the quotient of dividing total dollars
(numerator) by total hours (denominator). Arriving at the final numerator and denominator in
this rate computation involves a series of calculations. Inaccuracies in either the dollar amounts
or hours reported can have varying effects on the final rate computation.

Section 1886(d)(3)(E) of the Social Security Act (the Act) requires that CMS update wage
indexes annually in a manner that ensures that aggregate payments to hospitals are not affected
by changes in the indexes. Hospitals must accurately report wage data for CMS to determine the
equitable distribution of payments. Further, section 1886(d)(3)(A)(iv) of the Act requires CMS
to update labor and nonlabor average standardized amounts by an applicable percentage increase
specified in section 1886(b)(3)(B)(i). The percentage increase is based on the market basket
index, which measures inflationary increases in hospital costs. The inclusion of unallowable


1
 The inpatient prospective payment system wage index or a modified version also applies to other providers, such as
outpatient hospitals, long-term-care hospitals, inpatient rehabilitation facilities, inpatient psychiatric facilities,
skilled nursing facilities, home health agencies, and hospices.


                                                          1
costs in wage data could produce an inaccurate market basket index for updating prospective
payments to hospitals.

Altoona Regional Health System

The Altoona Regional Health System (the Hospital) was formed when the Altoona and Bon
Secours–Holy Family Hospitals merged on November 1, 2004. Acute-care services are provided
at two campuses, Altoona and Bon Secours. The Hospital is licensed for a combined total of 497
beds and is one of two hospitals in the Altoona CBSA. 2 The Hospital submitted to CMS a
consolidated FY 2006 Medicare cost report covering the period July 1, 2005, through June 30,
2006.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
reporting wage data in its FY 2006 Medicare cost report.

Scope

Our review covered the $126,004,471 in salaries and 4,544,800 in hours that the Hospital
reported to CMS on Worksheet S-3, part II, of its FY 2006 Medicare cost report, which resulted
in an average hourly wage rate of $27.72. We limited our review of the Hospital’s internal
controls to the procedures that the Hospital used to accumulate and report wage data for its cost
report.

We performed our fieldwork at the Hospital in Altoona, Pennsylvania, from August through
September 2008.

Methodology

To accomplish our objective, we:

       •   reviewed applicable Medicare laws, regulations, and guidance;

       •   obtained an understanding of the Hospital’s procedures for reporting wage data;

       •   verified that wage data on the Hospital’s trial balance reconciled to its audited financial
           statements;

       •   reconciled the total reported wages in the Hospital’s FY 2006 Medicare cost report to its
           trial balance;


2
    The Altoona CBSA comprises the Hospital and Nason Hospital.


                                                        2
   •   reconciled the wage data from selected cost centers to detailed support, such as payroll
       registers or accounts payable invoices;

   •   selected for testing wage data in the FY 2006 Medicare cost report from cost centers that
       accounted for at least 2 percent of the total Hospital wages;

   •   tested a sample of transactions from these cost centers and reconciled wage data to
       payroll records;

   •   obtained assistance from the CMS pension actuary to determine the allowable portion of
       the claimed pension costs;

   •   interviewed Hospital staff regarding the nature of services that employees and contracted
       labor provided to the Hospital; and

   •   determined the effect of the reporting errors by recalculating the Hospital’s average
       hourly wage rate using the CMS methodology for calculating the wage index, which
       includes an hourly overhead factor, in accordance with instructions published in the
       Federal Register.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATION

The Hospital did not fully comply with Medicare requirements for reporting wage data in its
FY 2006 Medicare cost report. Specifically, the Hospital reported the following inaccurate wage
data, which affected the numerator and/or denominator of its wage rate calculation:

   •   misstated salaries and hours, which overstated wage data by $546,576 and understated
       hours by 17,841;

   •   unallowable and misstated contract service costs, which overstated wage data by
       $440,626 and 10,488 hours;

   •   unallowable and misstated wage-related benefit costs, which overstated wage data by
       $167,831; and

   •   misstated excluded salaries and hours, which understated wage data by $40,211 and
       overstated hours by 9,330.

These errors occurred because the Hospital did not sufficiently review and reconcile its reported
wage data to supporting documentation to ensure that the data were accurate, supportable, and in


                                                3
compliance with Medicare requirements. As a result, the Hospital overstated its wage data by a
total of $1,114,822 (numerator) and 1,977 hours (denominator) for the FY 2006 Medicare cost
report period. Our correction of the Hospital’s errors decreased the average hourly wage rate
approximately 0.83 percent from $27.72 to $27.49. Because the Hospital did not revise the wage
data in its cost report before CMS computed the FY 2009 wage indexes, the FY 2009 wage index
for the Hospital’s CBSA was overstated, which will result in overpayments to both of the
hospitals that use this wage index.

ERRORS IN REPORTED WAGE DATA

The errors in reported wage data are discussed below. We provided the Hospital with details on
these errors and on our calculations under separate cover.

Misstated Salaries and Hours

The “Medicare Provider Reimbursement Manual” (the Manual), part II, section 3605.2, states
that hospitals should ensure that the wage data reported in their Medicare cost reports are
accurate. Section 3605.2 also states: “Paid hours include regular hours (including paid lunch
hours), overtime hours, paid holiday, vacation and sick leave hours, paid time-off hours, and
hours associated with severance pay . . . . [I]f the hours cannot be determined, then the
associated salaries must not be included . . . .”

The Hospital reported a total of $557,808 in overstated salaries and 17,506 understated hours, as
follows:

   •   The Hospital overstated salaries for sick and vacation accruals by $557,808 because it did
       not include related hours. We asked the Hospital to provide the related hours; however,
       the Hospital elected not to determine the actual related hours. Consequently, we did not
       allow the reported salaries for sick and vacation pay.

   •   The Hospital understated hours for reported yearend salary accruals and retirement sick
       bonus payments that were included in reported salaries. We determined that the Hospital
       understated wage-related hours by 17,506 for these salaries and adjusted the number of
       hours accordingly.

As a result, after overhead was factored in, the Hospital overstated its wage data by $546,576
and understated its hours by 17,841, which overstated its average hourly wage rate by $0.23.

Unallowable and Misstated Contract Service Costs

The Manual, part II, section 3605.2, requires that hospitals ensure that wage data reported in
their Medicare cost reports are accurate. The Manual also requires hospitals to report separately
the amounts paid under contract for Part A physician services, excluding teaching physician
services, and for direct patient care and management services.




                                                4
The Hospital misstated contract service costs by a total of $440,626 and 10,488 hours by:

   •   including unallowable teaching costs for the Hospital’s pregnancy care center (overstated
       by $494,450 and 9,958 hours),

   •   making calculation errors for contract services (understated by $53,824 and 259 hours),
       and

   •   making calculation errors for paid contract hours (overstated by 789 hours).

As a result, the Hospital overstated its wage data by a net of $440,626 and 10,488 hours, which
overstated its average hourly wage rate by $0.03.

Unallowable and Misstated Wage-Related Benefit Costs

The Hospital reported $204,939 in unallowable and misstated benefit costs. This amount
included $247,432 in unallowable pension benefit costs, $16,206 in overstated health insurance
fringe benefit costs, and $58,699 in understated employee tuition reimbursement costs. The
Hospital allocated $170,517 of the $204,939 to wage-related benefit costs.

Unallowable Pension Benefit Costs

Pursuant to Federal regulations (42 CFR § 413.100(c)(2)(vii)(B)), “[a]ccrued liability related to
contributions to a funded deferred compensation plan must be liquidated within 1 year after the
end of the cost reporting period in which the liability is incurred.” The regulations further state
that “Postretirement benefit plans . . . are deferred compensation arrangements and thus are
subject to provisions of this section regarding deferred compensation and to applicable program
instructions . . .” (42 CFR § 413.100(c)(2)(vii)(C)). The Manual, part I, section 2142.5, allows
reimbursement of certain pension plan costs, including normal costs, provided that certain
requirements are met. A hospital must “make payment of its current liability for both normal
costs and actuarial accrued liability costs to the fund established for the pension plan” (section
2142.6(A)). When the payment made is “more than the lesser of the tax deductible maximum or
the total normal cost plus ratable amortization of the unfunded actuarial accrued liability, the
excess may be carried forward and considered as payment against the liability to the fund of the
future period” (section 2142.6(C)). (Emphasis added.)

For the year ended June 30, 2006, the Hospital’s cost report initially included $5.2 million in
pension benefit costs for its funded deferred compensation plan. In accordance with the Manual,
part I, section 2142.6(C), the fiscal intermediary reduced the allowable pension benefit costs.
However, the fiscal intermediary used contribution amounts from a prior year in its calculation
and added an inaccurate amortization amount to the normal cost. As a result, the fiscal
intermediary’s calculation of the allowable pension benefit amount, $4.6 million, was incorrect.

Using corrected contribution and amortization amounts, CMS’s pension actuary calculated the
Hospital’s normal cost plus amortization (the maximum pension expense that the Hospital could
include in its pension benefit costs) and determined that $4,352,568 of the Hospital’s original
reported contribution was allowable. Because the fiscal intermediary overstated allowable


                                                 5
pension benefit costs by $247,432, the amount allocated to wage-related benefit costs continued
to overstate the Hospital’s wage data by $205,873. The remaining $41,559 in pension costs was
not included in the wage-related benefit costs because it was not allocable for wage rate
purposes.

Overstated Health Insurance Fringe Benefit Costs

The Manual, part II, section 3605.2, states that hospitals should ensure that the wage data
reported in their Medicare cost reports are accurate. The Manual, part II, section 1102.3,
requires hospitals to report wage-related benefit costs, both core costs and costs for allowable
exceptions, on Exhibit 6 of Form CMS-339. Part I of Exhibit 6 is a standardized core list of
wage-related benefit costs.

The Hospital reported $19,315 for miscellaneous fringe benefits on Exhibit 6, Line 8, “Health
Insurance.” Because of accounting and clerical errors, the Hospital overstated miscellaneous
fringe benefits by $16,206, which overstated its wage data by $13,484.

Understated Employee Education Costs

The Manual, part I, section 2144.4, states that provider-paid educational courses benefiting the
employee’s interest are includable as a provider’s cost. The Hospital did not include $58,699 for
tuition costs for Bon Secours employees, which understated the Hospital’s wage data by
$48,840.

Resulting Overstated Wage-Related Benefit Costs

In reporting pension, health insurance, and education costs, the Hospital overstated its wage data
by $170,517 ($205,873 plus $13,484 less $48,840) in salaries. As a result, after overhead was
factored in, the Hospital overstated its wage data by a total of $167,831, which overstated its
average hourly wage rate by $0.04.

Misstated Excluded Salaries and Hours

The Manual, part II, section 3605.2, states that hospitals should ensure that the wage data
reported in their Medicare cost reports are accurate, including excluded salaries and hours.

Because of clerical errors, the Hospital overstated direct personnel costs associated with
excluded salaries for services provided by the rehabilitation cost center by $100,000. Also, the
Hospital overstated excluded hours for the Bon Secours skilled nursing facility by 3,850 and
understated excluded hours by 11,083 because it misstated total hours related to excluded areas.

As a result, after overhead was factored in, the Hospital understated its wage data by $40,211
and overstated its hours by 9,330, which understated its average hourly wage rate by $0.07.




                                                 6
CAUSES OF WAGE DATA REPORTING ERRORS

These reporting errors occurred because the Hospital did not sufficiently review and reconcile
wage data to supporting documentation to ensure that all amounts included in its Medicare cost
report were accurate, supportable, and in compliance with Medicare requirements.

MISSTATED WAGE DATA AND POTENTIAL OVERPAYMENTS

As a result of the reporting errors, the Hospital overstated its Part A wage data by $1,114,822
(numerator) and 1,977 hours (denominator) for the FY 2006 Medicare cost report period. Our
correction of the Hospital’s errors decreased the average hourly wage rate approximately
0.83 percent from $27.72 to $27.49. Because the Hospital did not revise the wage data in its cost
report before CMS computed the FY 2009 wage indexes, the FY 2009 wage index for the
Hospital’s CBSA was overstated, which will result in overpayments to both of the hospitals that
use this wage index.

RECOMMENDATION

We recommend that the Hospital implement review and reconciliation procedures to ensure that
the wage data reported in future Medicare cost reports are accurate, supportable, and in
compliance with Medicare requirements.

ALTOONA REGIONAL HEALTH SYSTEM COMMENTS

In its comments on our draft report, the Hospital stated that it would implement procedures to
ensure that the wage data reported in future Medicare cost reports are accurate, supportable, and
in compliance with our recommendation. The Hospital’s comments are included as the
Appendix.




                                                7
APPENDIX
APPENDIX
